HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Montana for Fiscal Years 1990 Through
2003," (A-07-07-00227)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed
for Medicare Reimbursement by Blue Cross Blue Shield of Montana for Fiscal Years
1990 Through 2003," (A-07-07-00227)
April 26, 2007
Complete Text of Report is available in PDF format (375 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the allowability of pension costs that Montana claimed for Medicare reimbursement for fiscal years (FY) 1990 - 2003. Montana did not claim Medicare pension costs for FYs 1990 - 2003. Allowable Medicare pension costs during this period were $1,849,746. Montana did not claim $1,849,746 of allowable pension costs because it had chosen not to claim pension costs for Medicare reimbursement.
We recommended that Montana revise its Final Administrative Cost Proposals (FACP) to increase claimed pension costs by $1,849,746. We also recommended that Montana claim future pension costs in accordance with Federal requirements and the Medicare contracts. Montana concurred with our recommendations.